      ADVISORY REPORT

    COSTS CLAIMED BY THE STATE
    OF NORTH DAKOTA, GAME AND
      FISH DEPARTMENT, UNDER
  FEDERAL AID GRANTS FROM THE
   U.S. FISH AND WILDLIFE SERVICE
  FROM JULY 1, 1997 TO JUNE 30, 1999




SEPTEMBER 2002     Report No. 2002-E-0011
                                                                              X-GR-FWS-0026-2002
              United States Department of the Interior
                          OFFICE OF INSPECTOR GENERAL
                                      Washington, D.C. 20240


                                                                                  September 10, 2002

                                 ADVISORY REPORT
Memorandum

To:          Director
             U.S. Fish and Wildlife Service

From:        Roger La Rouche
             Assistant Inspector General for Audits

Subject:     Advisory Report on Costs Claimed by the State of North Dakota, Game and
             Fish Department, under Federal Aid Grants from the U.S. Fish and Wildlife
             Service from July 1, 1997 to June 30, 1999 (No. 2002-E-0011)

                                          Introduction
       This report presents the results of our performance of procedures to review
another audit agency’s work related to costs claimed by the State of North Dakota, Game
and Fish Department (Department) under Federal Aid grants from the U.S. Fish and
Wildlife Service (FWS) for the period from July 1, 1997 to June 30, 19991.

Background and Scope

         The Federal Aid in Wildlife Restoration Act, as amended (16 U.S.C. 669) and the
Federal Aid in Sport Fish Restoration Act, as amended (16 U.S.C. 777), (the Acts),
authorize FWS to provide Federal Aid grants to states to enhance their sport fish and
wildlife programs. The Acts provide for FWS to reimburse the states for up to 75 percent
of all eligible costs incurred under the grants. The Acts specify that state hunting and
fishing license revenues cannot be used for any purpose other than the administration of
the state’s fish and game agencies. In addition, FWS also provides grants to the states
under the Clean Vessel Act and the Endangered Species Act.

        Effective September 28, 2001, another audit agency ceased work prior to drafting
a report on its audit of North Dakota’s Federal Aid Program grants awarded by the FWS
for the period July 1, 1997 to June 30, 1999. The scope of its audit work, as stated in the
announcement letter to the Department, was to address the following: (1) the adequacy of
the Department’s accounting system and related internal controls; (2) the accuracy and

1
 The review primarily covered grant activity during state fiscal years 1998 and 1999 but also covered some
grants open during state fiscal year 1997.
eligibility of the direct and indirect costs claimed by the Department under the Federal
Aid grant agreements with FWS; (3) the adequacy and reliability of the Department’s
hunting and fishing license fees collection and disbursement process; and (4) the
adequacy of the Department’s purchasing system and related internal controls. The audit
was also to include any other issues or systems considered to be sensitive and/or
significant to the FWS. The audit work at the Department covered grant expenses
totaling approximately $12.9 million on FWS grants that were open during the
Department’s fiscal years ending June 30, 1998 and 1999 (see Appendix 1). The audit
agency’s agreement with the FWS expired before that agency had drafted a report or
briefed the FWS on issues identified during the audit.

        From 1996 through September 2001, the other audit agency conducted audits of
Federal Aid grants under a reimbursable agreement with the FWS. The FWS did not
renew or extend its agreement with the audit agency, which expired on September 30,
2001. At the time of expiration, final audit reports on several uncompleted audits had not
been issued and were in various stages of the audit and reporting processes. The other
audit agency indicated in a September 28, 2001 memorandum that the draft report and
supporting work papers related to the audit had not been completed and that its
supervisors had not completed their review of the working papers to ensure that (1)
sufficient, competent and relevant evidence was obtained, (2) evidential matter contained
in the work papers adequately supports the audit findings, and (3) sound auditing
techniques and judgment were used throughout the audit.

        On September 20, 2001, FWS and the Department of the Interior (DOI) Office of
Inspector General (OIG) entered into an Intra-Departmental Agreement under which
FWS requested the OIG to (1) review the audit work performed by the audit agency
including its working papers, summaries and draft reports for these audits and (2) issue
reports on the findings that were supported by the working papers. Accordingly, our
review was limited to performing the procedures set forth in the Intra-Departmental
Agreement and our conclusions presented in the report are limited to the findings
substantiated by the working papers. We did not perform any additional audit work of
the Department’s records, and the limited work performed under these procedures does
not constitute an audit by the OIG in accordance with Generally Accepted Government
Auditing Standards.

                                      Results of Review
        The working papers demonstrated that the Department’s accounting, purchasing,
cash management, billing and asset management systems and related internal controls
and its indirect cost structure and assent legislation were adequate for Federal aid
participation.2 In addition, the working papers disclosed the following:



2
  There was insufficient information in the working papers regarding the sufficiency of the Department’s
license fee collection and disbursement system and its system to certify the accuracy of the number of
hunting and fishing license holders.



                                                    2
    • The Department’s method of allocating “compensated absence costs” (for
        example, vacation, sick leave, and holidays) to Federal Aid grants may have
        resulted in an inequitable distribution of costs to the Federal Aid grants.

    • The Department had not provided adequate handicapped access to restroom
        facilities at 10 wildlife management areas and 3 other sites that received Federal
        Aid funds.

A. Allocation of Employee Benefit Costs
        The working papers indicated that the Department’s method of allocating
employee “compensated absence costs” (i.e., vacation, sick leave, and holidays) did not
provide for an equitable distribution to Federal Aid grants. The Department’s method
was to apply 100 percent of each employee’s compensated absence costs to the cost
center/project to which the employee charged the most labor hours during the month of
the absence. This practice is not consistent with Office of Management and Budget
Circular No. A-87, Cost Principles for State, Local, and Indian Tribal Governments;
Attachment B; Section 11d.(2) states “The cost of fringe benefits in the form of regular
compensation paid to employees during periods of authorized absences from the job . . .
are allowable if: . . . (b) the costs are equitably allocated to all related activities, including
Federal awards”.

        Allocating all of an employee’s monthly benefit costs to the activity the employee
charges most of his/her time during a month may not result in an equitable allocation of
costs. According to the working papers, a Department official agreed that the allocation
method could cause an inequitable distribution of costs to Federal Aid grants. The
official also said that the Department would revise its procedures so that compensated
absence costs would be included in the Department’s indirect cost pool and be distributed
through the application of its indirect cost rate to provide a more equitable distribution of
costs3.

        The working papers also included a worksheet prepared by the Department
official that reallocated the compensated absence costs. The reallocation estimated that
the leave costs charged to the Federal Aid grants had been overstated by $83,052 for
fiscal years 1998 and 1999, as follows:

                           Fiscal Year           Amount Overstated4
                           1998                          $38,854
                           1999                           44,198
                                  Total                  $83,052

3
  The Department’s approved indirect cost rates for fiscal years 2001 and 2002 include compensated
absence costs in the indirect cost pool.
4
  The reallocation performed by the Department also included fiscal years 1996 and 1997. For 1996, there
was an undercharge of $27,778 and for 1997, there was an overcharge of $67,956. These two years are
outside the scope of the review.



                                                   3
        The Department’s analysis did not break out the overcharges by individual grant
nor were we able to verify the accuracy of the Department’s calculation. Therefore, we
did not classify the costs as questioned costs.

Recommendation

       We recommend that the FWS resolve the estimated overcharges for compensated
absence costs.

Department and U.S. Fish and Wildlife Service Responses

       The Department stated in its response that it “does not agree that there
was not equitable distribution of compensated absence costs.” It also stated
that compensated absence costs were not charged to the Federal Aid grants
for employees who “sometimes worked on federal aid projects, but worked
primarily on nonfederal projects.” The Department said, however, that it
had changed its system to include these costs in their negotiated indirect cost
pool, and that this system is actually easier for the Department to administer
and that it considers this as “a positive change.”

        The FWS stated that since the auditor’s verified that corrective action was taken,
they consider the audit finding resolved and implemented, and no further corrective
action is required.

Office of Inspector General Comments

       Based on the Departments’ and FWS’ responses we consider the recommendation
resolved and implemented.

B. Access to Facilities for Handicapped Individuals

        The working papers indicated the Department had not provided (1) adequate
handicapped access to restroom facilities at 9 of 15 wildlife management areas and at 3 of
9 other sites visited and (2) handicapped parking spaces at 7 of the 10 wildlife
management areas and at 2 of the 3 other sites (see Appendix 2). The Code of Federal
Regulations (50 CFR 80.21) requires states to certify they have complied with all
applicable Federal laws including the Americans with Disabilities Act. Further, the FWS
Federal Aid Handbook Part 523, Chapter 1.4c(3) states “the location of facilities shall not
have the effect of excluding handicapped persons from, deny them the benefits of, or
otherwise subject them to discrimination under any Federal Aid project.” According to
the working papers, the Department was beginning to correct these deficiencies starting
with the sites with heaviest use.




                                             4
Recommendation

       We recommend that the FWS ensure that Departmental facilities supported with
Federal Aid funds provide adequate access for handicapped individuals.

Department and U.S. Fish and Wildlife Service responses

       The Department stated that handicap access will be provided by constructing
cement walkways and that it hoped to complete as many of the projects as possible this
calendar year and the remaining projects in 2003. Regarding the handicap parking issue,
the Department said that handicap signs will be installed at all nine locations by the end
of August 2002.

        The FWS stated that it concurred that the Department’s proposed corrective
action plan, when fully implemented, will correct the access deficiencies noted by the
auditors. The FWS added that it will consider the finding and recommendation resolved
and implemented when all actions have been completed.

Office of Inspector General Comments

        We consider the recommendation resolved but not implemented. The corrective
action plan should provide a schedule for completion of the access facilities for all
identified Departmental sites.

        In accordance with the Departmental Manual (360 DM 5.3), please provide us
with your corrective action plan by December 11, 2002, regarding the issues discussed in
this report. If you have any questions regarding this report, please contact Mr.Gary Dail,
Federal Assistance Audit Coordinator, at (703) 487-8032.

        This Advisory Report is intended solely for the use of grant officials of the U.S.
Fish and Wildlife Service, and is not intended for, and should not be used by anyone who
is not cognizant of the procedures that were applied and agreed to the sufficiency of those
procedures.

cc: Regional Director, Region 6,
       U.S. Fish and Wildlife Service




                                            5
                                                                                       APPENDIX 1
                                                                                            Page 1 of 2

       NORTH DAKOTA GAME AND FISH DEPARTMENT
    SUMMARY OF COSTS CLAIMED FOR GRANTS OPEN FROM
           JULY 1, 1996 THROUGH JUNE 30, 1999*

                                    Fisheries Restoration
                           Grant Number                     Total Costs Claimed


                          FW-13-T-18                                   $225
                          FW-13-T-19                                 57,199
                          FW-13-T-20                                 46,746
                          FW-13-T-21                                 65,349
                           F-2-R-44                               1,077,000
                           F-2-R-45                               1,098,750
                           F-2-R-46                                 617,950
                           F-30-D-33                                 54,395
                           F-30-D-35                                162,620
                           F-30-D-37                                133,588
                           F-30-D-39                                 94,773
                        F-30-D-MA-34                                524,517
                        F-30-D-MA-36                                412,855
                        F-30-D-MA-38                                176,884
                           F-38-D-11                                154,625
                           F-38-D-12                                329,352
                           F-38-D-13                                317,161
                           F-38-D-14                                259,925
                          F-41-AE-10                                 71,451
                          F-41-AE-11                                152,323
                          F-41-AE-12                                145,747
                          F-41-AE-13                                 95,825
                Sub-Total Fisheries Restoration                  $6,049,260



_______________
*
 The grant schedule provided by FWS included in the working papers showed only the expenses claimed
by grant and did not show the grant agreement amounts. Also, although the audit agency’s announcement
letter identified the audit period as fiscal years 1998 and 1999, the schedule provided by FWS included
some costs claimed for grants open during fiscal year 1997.




                                                   6
                                                                                       APPENDIX 1
                                                                                         Page 2 of 2

      NORTH DAKOTA GAME AND FISH DEPARTMENT
   SUMMARY OF COSTS CLAIMED FOR GRANTS OPEN FROM
          JULY 1, 1996 THROUGH JUNE 30, 1999*

                                     Wildlife Restoration
                     Grant Number                           Total Costs Claimed
                       FW-13-T-20                                 $ 186,984
                       FW-13-T-21                                   196,495
                       W-23-D-51                                    959,162
                       W-23-D-52                                  1,023,253
                       W-23-D-53                                    966,036
                       W-67-R-37                                    967,255
                       W-67-R-38                                    858,512
                       W-67-R-39                                    842,399
                        W-83-S-25                                   238,758
                        W-83-S-26                                   310,337
                        W-83-S-27                                   214,823
                         HIP-1-1                                     50,000
             Sub-Total Wildlife Restoration                     $ 6,814,014

                            Endangered Species Restoration
                          Grant Number                       Total Costs Claimed
                             E-1-19                                 $ 6,768
                             PW-1-1                                  14,500
                             SE-1-10                                  2,513
                             SE-1-11                                    667
                             SE-1-12                                  8,334
                             SE-1-13                                  5,566
                             SE-1-14                                  9,000
                             SE-1-15                                  9,000
                             SE-1-16                                 10,000
                             SE-1-17                                  5,009
                Sub-Total Endangered Species                        $71,357
                    Total Amount Claimed                         $12,934,631


________________
*
  The grant schedule provided by FWS included in the working papers showed only the expenses claimed
by grant and did not show the grant agreement amounts. Also, although the audit agency’s announcement
letter identified the audit period as fiscal years 1998 and 1999, the schedule provided by FWS included
some costs claimed for grants open during fiscal year 1997.


                                                   7
                                                                 APPENDIX 2


      NORTH DAKOTA GAME AND FISH DEPARTMENT
    HANDICAPPED ACCESS ISSUES AT DEPARTMENT SITES
         VISITED DURING JULY AND AUGUST 2000


                                                        No Restroom No Handicapped
             Sites Visited              Grant Number       Access   Parking Spaces

     Wildlife Management Areas
Oahe                                  F-23-D
Moon Lake Fishing Access              F-30-D                X             X
Erie Dam and Recreation Area          FW-7-L & W-82-L       X             X
Rice Lake                             W-23-D
Froelich Dam                          F-30-D                X
Indian Creek                          F-30-D                X             X
Van Hook                              F-30-D
Sweet Briar Lake                      F-30-D & W-23-D       X
Crown Butte Lake                      F-30-D                X             X
Wakopa                                F-30-D & W-23-D       X             X
Pembina Hills                         W-23-D
Minnewaukan                           F-30-84-MA
Warsing Dam                           F-30-D                X             X
Balta                                 F-30-D
Fish Creek                            F-30-D                X             X
     Subtotal: Number of Sites: 15                          9             7

               Other Sites
Kimball Bottoms-Desert Ramp           F-30-D
Sugar Loaf Bottoms                    F-30-D
Little Hearts Bottom                  F-30-D                X
Raleigh Reservoir Recreation Area     F-30-D                X             X
Swenson Fishing Access                F-30-D
Garrison Dam National Fish Hatchery   F-38-D
Six Mile Bay Recreation Area          F-30-84-MA
East Bay Boat Ramp                    F-30-84-MA
Creel Bay Recreation Center           F-30-84-MA            X             X
      Subtotal: Number of Sites: 9                          3             2

 Total: Number of Sites: 24                                 12            9




                                        8
                             How to Report
                 Fraud, Waste, Abuse and Mismanagement
Fraud, waste, and abuse in government are the concern of everyone B Office of Inspector
General staff, Departmental employees, and the general public. We actively solicit allegations
of any inefficient and wasteful practices, fraud, and abuse related to Departmental or Insular
Area programs and operations. You can report allegations to us by:
              Mail:          U.S. Department of the Interior
                             Office of Inspector General
                             Mail Stop 5341-MIB
                             1849 C Street, NW
                             Washington, DC 20240
              Phone:         24-Hour Toll Free              800-424-5081
                             Washington Metro Area          202-208-5300
                             Hearing Impaired (TTY)         202-208-2420
                             Fax                            202-208-6081
                             Caribbean Region               340-774-8300
                             Northern Pacific Region        671-647-6051
              Internet:      www.oig.doi.gov/hotline_form.html




                            U.S. Department of the Interior
                              Office of Inspector General
                                  1849 C Street, NW
                                Washington, DC 20240
                                        www.doi.gov
                                       www.oig.doi.gov
